GR-70-98-013
U.S. DEPARTMENT OF JUSTICE
 

AUDIT REPORT
 
 Community Oriented Policing Services
Grants to the Springfield, Massachusetts Police Department
GR-70-98-013
 
July 24, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Springfield Police Department (Springfield). Springfield was
awarded a total of $10,171,256 in COPS grants to hire 112 new sworn police officers and
redeploy 42.3 full-time-equivalent (FTE) sworn police officers from administrative duties
to community policing.
Springfield properly managed most aspects of its COPS grants; however, Springfield
violated some grant conditions.


Four of Springfields AHEAD/UHP requests for payment were not proper because they
    requested reimbursement for vacant grant-funded positions. As a result, we question the
    $114,146 in excess reimbursement that Springfield received. 

Springfield deposited the excess reimbursements in an interest-bearing account and
    received about $5,300 in interest. Grant recipients are not permitted to earn in excess of
    $250 per year in interest from grant funds. We recommend that Springfield return about
    $5,000 to the U.S. Department of Health and Human Services.

Springfield did not always submit timely and accurate monitoring reports.

These items are discussed in the Findings and Recommendations section of the report.
Our Scope and Methodology appear in the Appendix II.
#####